PROOF OF SERVICE
I, Paul Fiscus III, do declare that on this date,
December 12, 2020, as required by Supreme Court
Rule 29 I have served the enclosed PETITION FOR A
WRIT OF CERTIORARI on each party’s counsel, and
on every other person required to be served, by
depositing an envelope containing the above
documents in the United States mail properly
addressed to each of them and with first-class
postage prepaid within three calendar days. The
names and addresses of those served are as follows:
Martin W. Bauer
Martin, Pringle, Oliver, Wallace & Bauer, L.L.P.
645 E Douglas Ave., Suite 100
Wichita, KS 67202
(316) 265-9311
I declare under penalty of perjury that the foregoing is
true and correct.
Executed on December 12, 2020

(pauC(.Fiscus III
1106 N. Jefferson St.
Wichita, KS 67203
(316) 390-9410

RECEIVED
DEC 1 7 2020
SUPREME*1COURTLUtRK

28

After mailing an original petition for Writ of
Certiorari on 10/24/20, I spoke with 2 gentlemen
between 11/09-11/20 who said they coiild not find
it. I spoke with an Emily on 11/24 and she advised
to resend it with the receipt of the original money
order of $300 to pay the docket fee.

t* 0000075700 Teller: 0480 Date: 10/22/20Time:
—

3:16pm

receipt for reference
ck Number: 00 0000346335
pose :
lint : $300.00
: to ': CLERK, U.S SUPREME COjIRT
RE: PAUL ALLEN, FISCUg III

RECEIVED
DEC 17 2020
er,S£lM°lcT55ncT^.

